            OFFICE OF
     THE INSPECTOR GENERAL

 SOCIAL SECURITY ADMINISTRATION


        SINGLE AUDIT OF THE
   COMMONWEALTH OF PUERTO RICO
     DEPARTMENT OF THE FAMILY
     FOR THE FISCAL YEAR ENDED
            JUNE 30, 2000

      March 2003   A-77-03-00010




  MANAGEMENT
ADVISORY REPORT
                                    Mission
We improve SSA programs and operations and protect them against fraud, waste,
and abuse by conducting independent and objective audits, evaluations, and
investigations. We provide timely, useful, and reliable information and advice to
Administration officials, the Congress, and the public.

                                   Authority
The Inspector General Act created independent audit and investigative units,
called the Office of Inspector General (OIG). The mission of the OIG, as spelled
out in the Act, is to:

   Conduct and supervise independent and objective audits and
    investigations relating to agency programs and operations.
   Promote economy, effectiveness, and efficiency within the agency.
   Prevent and detect fraud, waste, and abuse in agency programs and
    operations.
   Review and make recommendations regarding existing and proposed
    legislation and regulations relating to agency programs and operations.
   Keep the agency head and the Congress fully and currently informed of
    problems in agency programs and operations.

  To ensure objectivity, the IG Act empowers the IG with:

   Independence to determine what reviews to perform.
   Access to all information necessary for the reviews.
   Authority to publish findings and recommendations based on the reviews.

                                     Vision
By conducting independent and objective audits, investigations, and evaluations,
we are agents of positive change striving for continuous improvement in the
Social Security Administration's programs, operations, and management and in
our own office.
                                    SOCIAL SECURITY
MEMORANDUM
Date:   March 12, 2003                                                      Refer To:

To:     Candace Skurnik
        Acting Director
        Management Analysis and Audit Program Support Staff

From: Assistant Inspector General
         for Audit

Subject: Management Advisory Report: Single Audit of the Commonwealth of Puerto Rico,
        Department of the Family, for the Fiscal Year Ended June 30, 2000 (A-77-03-00010)


        This report presents the Social Security Administration’s (SSA) portion of the single
        audit of the Commonwealth of Puerto Rico, Department of the Family (DOF), for the
        Fiscal Year ended June 30, 2000. Our objective was to report internal control
        weaknesses, noncompliance issues, and unallowable costs identified in the single audit
        to SSA for resolution action.

        Ernst & Young LLP performed the audit. Results of the desk review conducted by the
        Department of Health and Human Services (HHS) have not been received. We will
        notify you when the results are received if HHS determines the audit did not meet
        Federal requirements. In reporting the results of the single audit, we relied entirely on
        the internal control and compliance work performed by Ernst & Young LLP and the
        reviews performed by HHS.

        For single audit purposes, the Office of Management and Budget assigns Federal
        programs a Catalog of Federal Domestic Assistance (CFDA) number. SSA’s Disability
        Insurance (DI) and Supplemental Security Income (SSI) programs are identified by
        CFDA number 96. SSA is responsible for resolving single audit findings reported under
        this CFDA number.

        The Puerto Rico Disability Determination Services (DDS) performs disability
        determinations under SSA’s DI and SSI programs in accordance with Federal
        regulations. The DDS is reimbursed for 100 percent of allowable costs. DOF is the
        Puerto Rico DDS’ parent agency.
Page 2 - Candace Skurnik

The single audit reported that:

1. Evidence to support expenditures for professional services contracted by DOF could
   not be located. The corrective action plan indicated that DOF agreed to retain
   records to support the process of contracting professional services when
   administering Federal funds (Attachment A, pages 1 and 2).

2. The Time Report of Personnel Services (SSA-4514) was not submitted timely. The
   corrective action plan indicated that the Human Resources Division is providing the
   required information in a more timely manner enabling the reports to be completed
   by the required due date (Attachment A, pages 3 and 4).

3. The indirect cost rate used to claim costs on the State Agency Report of Obligations
   (SSA-4513) was incorrect. The corrective action plan indicated that an adjustment
   was made in a subsequent SSA-4513 to correct the indirect costs claimed
   (Attachment A, pages 3 and 4).1

4. Estimated personnel costs were used on the SSA-4513, resulting in a questioned
   cost of $15,438. The corrective action plan indicated that accounting records were
   adjusted after payroll registers with actual expense information were received from
   the Puerto Rico Department of the Treasury (Treasury) and the adjustments were
   included in a subsequent SSA-4513 (Attachment A, pages 3 and 4).1

5. Evidence could not be located to support the time elapsed between the receipt and
   disbursement of Federal funds for the DDS program. The corrective action plan
   indicated that Treasury has initiated a project to identify payment information and
   provide it to the agencies regarding the transfer of Federal funds (Attachment A,
   pages 5 and 6). 1

6. DDS expenditures of $4,527 were not supported by documentation. The corrective
   action plan indicated a record retention system ensuring all records and documents
   are retained for the required period of time has been implemented (Attachment A,
   pages 7 and 8).




1
 The Office of the Inspector General Audit Report “Administrative Costs Claimed by the Commonwealth
of Puerto Rico Disability Determination Program during the period October 1, 1997 through
September 30, 2000” (A-06-02-22072) recommended corrective action that would resolve this issue.
Therefore, we are not making a recommendation to the Agency on the single audit finding.
Page 3 – Candace Skurnik

7. DOF does not maintain accurate records of acquisitions, physical location, and
   dispositions of property acquired with Federal funds. The corrective action plan
   indicated that personnel have been appointed and will be responsible for all property
   and equipment for the DDS program (Attachment A, pages 9 through 11).

8. Complete personnel information was not maintained in the employees files. The
   corrective action plan indicated that documents will be retained (Attachment A,
   pages 12 and 13).

We recommend that SSA:

1. Ensure that the DDS has a system in place to retain records to support:
   a) contracted professional services, b) SSA program expenditures, and c) personnel
   information.

2. Ensure the SSA-4514 is submitted to SSA within 30 days after the close of each
   Federal fiscal year quarter.

3. Determine whether the $4,527 in undocumented expenditures was allowable and
   recover any unallowable costs.

4. Verify that the DDS has procedures in place to maintain accurate records for the
   acquisition and disposition of property purchased with SSA funds.

The single audit also disclosed the following findings that may impact DDS operations
although they were not specifically identified to SSA. Some of these findings were
reported for several DOF programs indicating pervasive problems within DOF. If the
finding was reported in more than one DOF program, we identify the number of times
the finding was reported in parenthesis at the end of each finding. I am bringing these
matters to your attention as they represent potentially serious service delivery and
financial control problems for the Agency (Attachment B).

•   Financial statements were not prepared in conformity with Generally Accepted
    Accounting Principles because of a lack of policies, procedures, and financial
    reporting practices. Therefore, management did not have accurate and complete
    financial information on a timely basis to carry out other duties (11).

•   DOF did not have an effective filing system.

•   Federal reports were not submitted timely (7).

•   Property and equipment management procedures were not adequate (8).

•   Supporting documentation and accounting records were not retained for
    expenditures charged to Federal funds (25).
Page 4 – Candace Skurnik

•   Financial Status Reports did not agree with the General Ledger (6).

•   Expenditures were charged to incorrect grants (4).

•   Evidence to support the draw down of Federal funds could not be located (4).

•   The Cost Allocation Plan was not approved.

Please send copies of the final Audit Clearance Document to Mark Bailey in
Kansas City and Paul Wood in Baltimore. If you have questions contact Mark Bailey at
(816) 936-5591.




                                         S
                                         Steven L. Schaeffer

Attachments
                                                                                           Attachment A
                                                                                            Page 1 of 13
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-76

State Agency                             Catalog Number        Program Name

U. S. Social Security Administration     CFDA #96.001        Disability Determination Services

Topic Sentence
The Department could not locate evidence to support disbursements.

Category
Compliance/Internal Control

Compliance Requirement
Allowable Activities

Criteria
45CFR72.53 states that the financial records, supporting documents, statistical records, and all others
records pertinent to an award shall be retained for a period of three years from the date of the
submission of the final expenditure report. For awards that are renewed quarterly or annually, the
retained period would be from the date of the submission of the quarterly or annual financial report. If
any litigation, claim, financial management review, or audit is started before the expiration of the three
years period, the records should be retained until all litigation, claims or audit findings involving the
records have been resolved and final action taken. Records for real property and equipment acquired
with federal funds shall be retained for three years after final disposition of the real property and
equipment.

Condition Found
In testing compliance with activities allowed for the program we verified the payments made to
professional services contracted by the Department including a sample of doctors that performed
evaluations for disability determination. Total professional services amounted to $4,134,873 (or 31 % of
total disbursements). The Department did not furnish the following documents:

 Contract No./     Budget      Good       Former Work Confidentiality    Annual Evaluation of     Certificate of
 Participant Id    Amount     Standing     Experience   Certificate        Quality Control       Good Behavior
  122000092       $ 58,656.00                  X
     0129           46,420.00                                                                          X
     9495           20,020.00                                                     X                    X
     2611            1,069.00    X                             X                                       X
     3723           10,200.00                                                                          X
     7399            9,350.00                                                                          X
                  $145,715.00

Known Questioned Costs
None
                                                                                           Attachment A
                                                                                            Page 2 of 13

                                  Commonwealth of Puerto Rico
                                    Department of the Family

                           Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-76 (continued)

Underlying Cause
The Department's internal control related to contract evaluation and authorization is inadequate.

Effect
The Department may have expended funds for unallowable activities, which could result in disallowed
costs by federal awarding agency.

Recommendation
The Department should ascertain that adequate source documents exists to support the process of
contracting professional services that will administer federal and public funds. The Department should
also establish a record retention system to ascertain that accounting records and documents are retained
for the time period required by applicable regulations and the provisions of laws, contracts or grant
agreements of the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                         Attachment A
                                                                                          Page 3 of 13
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)

Finding Number: 00-77

State Agency                            Catalog Number       Program Name

U. S. Social Security Administration    CFDA #96.001        Disability Determination Services

Topic Sentence:
The Department did not submit the Financial Status Report and Cash Transactions Report when due. In
addition, an incorrect indirect cost rate was used.

Category
Internal Control/Compliance

Compliance Requirement
Reporting

Criteria
The Department must submit the SSA-4513 and SSA-4514 no later than 30 days after the end of each
specified reporting period for quarterly and semi-annual reports, and 90 calendar days for annual and
final reports.

Condition Found
In order to test compliance with the reporting deadline of the Disability Determination Services, we
selected the four quarterly reports and noted the following:

1.   The Time Report of Personnel Services (SSA-4514) for the year was submitted late (from 5 to 47
     days after the ending of covered period).
2.   The State Agency Report of Obligations (SSA-4513) for the period ended 9-30-99, 12-31-99,
     3-31-00, and 6-30-00 used an indirect cost rate of 17.1% instead of the correct rate of 20%.
3.   In each quarter report, SSA-4513, DDS used estimates of personnel costs.

Known Questioned Costs
As of 9-30-99 $(44,622) not reported - Personnel Expenses
As of 6-30-00 60,060 - Personnel Expenses
              $ 15,438

Underlying Cause
Tracking of due dates is not kept by the personnel.

Effect
Inaccurate reporting prevents the federal awarding agency from monitoring the program's financial
activities, assessing the achievements of the program and/from evaluating the grant award for the
following year.

Recommendation
The Department should develop a tracking system, which reminds staff of due dates.              Adequate
evidence of the submittal of all federal reports should be kept by the Department.
                                                                                        Attachment A
                                                                                         Page 4 of 13
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-77 (continued)

Management's Response
The Department acknowledged our findings and agreed with our recommendation. In relation to Item 1,
the Department is making the necessary adjustments to comply with the due dates. The Human
Resources Division of the Department is providing part of the information that is required for the
completion of the SSA-4514 and this process has proved to be very effective. Also the program is in the
process of automating the attendance of employees, which will allow the program to obtain the
information sooner and report on a timely manner.

Regarding the indirect cost rate, an adjustment was made subsequently in the quarterly report of
December 2000, to correct the reported indirect costs.

In relation to Item 3, payroll is processed by the Puerto Rico Treasury Department through the RHUM
system. Payroll registers with actual expense information are received late from Department of
Treasury, which obligates the DDS to record payroll expenses based on the last payroll. Once the
payroll information is received, the accounting records are adjusted and this is reflected in the next
SSA-4513.
                                                                                         Attachment A
                                                                                          Page 5 of 13
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-78

State Agency                           Catalog Number       Program Name

U. S. Social Security Administration   CFDA #96.001         Disability Determination Services

Topic Sentence
The Department could not locate evidence to support the time elapsed between the transfer of federal
funds and the disbursements of the funds.

Category
Compliance/Internal Control

Compliance requirement
Cash Management

Criteria
31CFR205.6 established that the Zero balance accounting is a method of transferring Federal funds to
the State based on the actual amount of funds that are paid out by the State. The funding technique
must be auditable for internal control purposes. Auditable means the sources of data and information for
a calculation are readily available, fully documented, and verifiable, such that the calculation can be
replicated and proven to comply with all pertinent standards.

Condition Found
In testing compliance with cash management, we examined the vouchers for payments and evaluated
the procedures implemented to minimize the time elapsed between the transfer of Federal Funds and the
payment of funds for program purposes.

We were unable to perform the Cash Management test because the Governmental Development Bank
did not provide a list detailing cancelled checks for which federal funds were expended. Checks cleared
by GDB are not listed in detail but included in a lump sum amount. This precludes ADFAN from
matching cleared checks with the corresponding payment and tying this to the request for funds. This
problem is between GDB and the PRIFAS system:

Known Questioned Costs
$38,222

Underlying Cause
The Governmental Development Bank was not sending to the Department a detail of the cancelled
checks.

Effect
The Department cannot match the disbursements with their corresponding checks for accounting
purposes.
                                                                                          Attachment A
                                                                                           Page 6 of 13
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-78 (continued)

Recommendation
The Department should ascertain that adequate source documents exist to support cash management of
federal funds. The Department should also establish a record retention system to ascertain that
accounting records and documents are retained for the time period required by applicable regulations
and the provisions of laws, contracts or grant agreements of the program.

Management's Response
This situation arises because of the lack of detailed information provided by GDB and the PRIFAS
system, which is controlled by the Puerto Rico Treasury Department. The Treasury Department started
a project in 2002 to solve this problem, which affects no only ADFAN, but all the governmental agencies
for which the Treasury Department acts as custody of their funds. Part of this project is identifying all
payment information and providing it to the agencies. Once this project is completed, this situation
should be corrected.
                                                                                           Attachment A
                                                                                            Page 7 of 13
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-79

State Agency                             Catalog Number       Program Name

U. S. Social Security Administration     CFDA #96.001        Disability Determination Services

Topic Sentence
The Department could not locate evidence to support disbursements.

Category
Compliance/Internal Control

Compliance requirement
Allowable Costs/Costs Principles

Criteria
As per OMB Circular A-102 Subpart C, Section 20 (2), grantees and sub-grantees must maintain records
which adequately identify the source and application of funds provided for financially assisted activities.
These records must contain information pertaining to the grant or sub-grant awards and authorizations,
obligations, un-obligated balances, assets, liabilities, outlays or expenditures, and income. Accounting
records must be supported by such source documentation as cancelled invoices, pre-audited invoices,
paid bills, payrolls, time and attendance records, etc. Except as otherwise provided, records must be
retained for three years.

Condition Found
In testing compliance with allowable costs and cost principles we examined 18 vouchers for payments
amounting to $38,222.11 and evaluated the procedures implemented to comply with the regulations of
the Federal Programs and Internal Control for the fiscal year ended June 30, 2000. We noted the
following exceptions:

 Payment Voucher                           "Libramiento" did not agree         Invoice without pre-audited
     Number                Amount             with payment request                evidence for payment
      50357                 $ 825.00                   X
      50652                     248.00                 X
      51900                     720.00                 X
      52637                     750.00                 X
      52882                     235.50                 X
      53371                     248.80                 X
      53817                     780.00                 X
      36140                     720.00                                                      X
                             $4,527.30

Known Questioned Costs
Questioned costs included in 00-78.
                                                                                          Attachment A
                                                                                           Page 8 of 13
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                            Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-79 (continued)

Underlying Cause
The Department's filing system is not effective.

Effect
The Department may have expended funds for unallowable activities, which could result in disallowed
costs by federal awarding agency.

Recommendation
The Department should also establish a record retention system to ascertain that accounting records and
documents are retained for the time period required by applicable regulations and the provisions of laws,
contracts or grant agreements of the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                             Attachment A
                                                                                              Page 9 of 13
                                    Commonwealth of Puerto Rico
                                      Department of the Family

                     Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-80

State Agency                              Catalog Number       Program Name

U. S. Social Security Administration      CFDA #96.001         Disability Determination Services

Topic Sentence
The Department lacks accountability over property, plant and equipment acquired with federal funds.

Category
Internal Control/Compliance

Compliance Requirement
Equipment and Real Property Management

Criteria
As per OMB Circular A-102, every two years, at a minimum, a physical inventory shall be conducted and
the results shall be reconciled with property records to verify the existence, current utilization, and
continued need for the equipment. Any discrepancies between quantities determined by the physical
inspection with those shown in the accounting records shall be investigated to determine the causes of
the differences. Property records shall be accurate. Property records shall include the following for each
item:

1.   A description of the equipment including manufacturer's serial numbers.
2.   Identification number, such as the manufacturer's serial numbers.
3.    Identification of the grant under which the recipient acquired the equipment.
4.   The information needed to calculate the federal share of the cost of the equipment.
5.   Acquisition date and unit acquisition cost.
6.   Location, use and condition of the equipment and the date the information was obtained.
7.   All pertinent information on the ultimate transfer, replacement, or disposal of the equipment.
                                                                                         Attachment A
                                                                                         Page 10 of 13
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                          Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-80 (continued)

Condition Found
We reviewed equipment records for the fiscal year 1999-2000, and verified the information included and
location of the equipment for observation. During our review we noted the following exceptions:

        Property Number             Acquisition Cost       Acquisition date           Grant Award
                                                            not included           Number not included
              4786                        $ 3,323.96                                       X
              4503                          2,156.33                                       X
              4414                          2,245.80                                       X
              4335                          3,323.96                                       X
              4259                            181.50                                       X
              4211                          1,800.00                                       X
              3847                         10,000.00                                       X
              3138                          5,900.00                                       X
              2943                         19,008.00                                       X
              2861                          1,995.00                                       X
              4955                         20,000.00                                       X
              4270                            335.00              X                        X
              3873                          2,260.95                                       X
              3850                          4,882.00                                       X
              3366                         18,000.00                                       X
                                          $95,412.50

In addition the equipment with a property number 2861 was disposed of and no evidence of the release
was obtained.

Known Questioned Costs
None

Underlying Cause
The Department does not maintain accurate records of acquisitions, physical location and dispositions of
property acquired with federal funds.

Effect
The Department is exposed to the risk of possible unauthorized use and disposition of equipment due to
the lack of internal controls and the lack of adequate property and equipment records. The possible
misappropriation of the equipment acquired with federal funds could result in disallowed costs.
                                                                                           Attachment A
                                                                                           Page 11 of 13
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                          Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-80 (continued)

Recommendation
The Department should conduct periodic inventories and follow up on inventory discrepancies. In
addition, the Department should review all dispositions of property to ascertain appropriate valuation and
reimbursement to federal awarding agencies.

Management's Response
In May 2002 an employee was appointed as the one responsible for all the property and equipment of
the program.
                                                                                              Attachment A
                                                                                              Page 12 of 13
                                    Commonwealth of Puerto Rico
                                      Department of the Family

                    Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-81

State Agency                              Catalog Number       Program Name

U. S. Social Security Administration      CFDA #96.001         Disability Determination Services

Topic Sentence
The Department could not locate evidence to support disbursements related to payroll charged to the
program.

Category
Compliance/Internal Control

Compliance requirement
Allowable Costs/Costs Principles

Criteria
As per OMB Circular A-102 Subpart C, Section 20 (2), grantees and sub-grantees must maintain
records, which adequately identify the source and application of funds provided for financially assisted
activities. These records must contain information pertaining to the grant or sub-grant awards and
authorizations, obligations, unobligated balances, assets, liabilities, outlays or expenditures, and income.
Accounting records must be supported by such source documentation as cancelled invoices, pre-audited
invoices, paid bills, payrolls, time and attendance records, etc. Except as otherwise provided, records
must be retained for three years.

Condition Found
In testing compliance with allowable costs and cost principles, we examined 18 employee records and its
related payroll information to evaluate the procedures implemented to comply with the regulations of the
Federal Programs and Internal Control for the fiscal year ended June 30, 2000. We noted the following
exceptions:

• Nine cases did not have copy of the Social Security card in their files.
• Three cases did not have evidence of education in their files.

Known Questioned Costs
None                                                                                      -

Underlying Cause
The Department's process for employee record retention is not effective.

Effect
The Department may have expended funds for unallowable activities, which could result in disallowed
costs by the federal awarding agency.
                                                                                          Attachment A
                                                                                          Page 13 of 13
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                          Schedule of Findings and Questioned Costs (continued)

Finding Number: 00-81 (continued)

Recommendation
The Department should improve the process of record retention of documents required for each
employee that works for this program in order to ascertain that the documents are retained for the time
period required by applicable regulations and the provisions of laws.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                             Attachment B
                                                                                              Page 1 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                    Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-01

Accounting and Finance Department

Topic Sentence
The Department has significant deficiencies in its internal control structure, accounting and financial
management systems, budgetary controls and financial reporting practices.

Category
Internal Control

Compliance requirement
All applicable compliance requirements as stated in OMB Circular A-133.

Criteria
Auditees must prepare their financial statements in accordance with generally accepted accounting
principles (GAAP). OMB Circular A-133 section 310, states that the auditee shall prepare financial
statements that reflect its financial position, results of operations or changes in net assets, and, where
appropriate, cash flows for the fiscal year audited.

GASB Codification section 1200, "Generally Accepted Accounting Principles and Legal Compliance,"
states that a governmental accounting system must make it possible, both: (a) to present fairly and with
full disclosure the financial position and results of operations of the funds and account groups of the
governmental unit in conformity with GAAP, and (b) to determine and demonstrate compliance with
finance-related legal and contractual provisions.

GASB Codification section 1300, "Fund Accounting," states that governmental accounting systems
should be organized and operated on a fund basis. A fund is defined as a fiscal and accounting entity
with a self-balancing set of accounts to record cash and other financial resources, together with all
related liabilities and residual equities or balances, and changes therein which are segregated for the
purpose of carrying on specific activities or attaining certain objectives in accordance with special
regulations, restrictions, or limitations.

GASB Codification section 1900, states that governmental entities should prepare interim and year-end
financial statements and reports of financial position, operating results, and other pertinent information to
facilitate management control of financial operations, legislative oversight, and for external reporting
purposes.
                                                                                            Attachment B
                                                                                             Page 2 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                            Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-01 (continued)

Criteria (continued)
OMB Circular A-102 Subpart C, Section 20, states that a state must expend and account for grant funds
in accordance with state laws and procedures for expending and accounting for its own funds. Fiscal
control and accounting procedures of the state, as well as its subgrantees and cost-type contractors,
must be sufficient to permit preparation of reports required by this part and the statutes authorizing the
grant, and permit the tracing of funds to a level of expenditures adequate to establish that such funds
have not been used in violation of the restriction and prohibitions of applicable statutes. The financial
management systems must meet the following standards:

•   Financial reporting: accurate, current, and complete disclosure of the financial results of
    financially assisted activities must be made in accordance with the financial reporting
    requirements of the grant or subgrant.

•   Accounting records: grantees and subgrantees must maintain records, which adequately
    identify the source and application of funds provided for financially assisted activities. These
    records must contain information pertaining to grant or subgrant awards and authorizations,
    obligations, unobligated balances, assets, liabilities, outlays or expenditures, and income.

•   Internal control: effective control and accountability must be maintained for all grant and
    subgrant cash, real and personal property, and other assets. Grantees and subgrantees
    must adequately safeguard all such property and must assure that it is used solely for
    authorized purposes.

•   Budget control: actual expenditures or outlays must be compared with budgeted amounts for
    each grant or subgrant. Financial information must be related to performance or productivity
    data, including the development of unit cost information whenever appropriate or specifically
    required in the grant or subgrant agreement. If unit cost data are required, estimates based
    on available documentation will be accepted whenever possible.

•   Allowable cost: applicable OMB cost principles, agency program regulations, and the terms of
    grant and subgrant agreements will be followed in determining the reasonableness,
    allowability, and allocability of costs.

•   Source documentation: accounting records must be supported by such source documentation
    as canceled checks, paid bills, payrolls, time and attendance records, contract and subgrant
    award documents, etc.
                                                                                            Attachment B
                                                                                             Page 3 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-01 (continued)

Criteria (continued)
•   Cash management: procedures for minimizing the time elapsing between the transfer of funds
    from the U.S. Treasury and disbursement by grantees and subgrantees must be followed
    whenever advance payment procedures are used. Grantees must establish reasonable
    procedures to ensure the receipt of reports on subgrantees' cash balances and cash
    disbursements in sufficient time to enable them to prepare complete and accurate cash
    transactions report to the awarding agency. When advances are made by letter-of-credit or
    electronic transfer of funds methods, the grantee must make drawdowns as close as possible
    to the time of making disbursements.

In addition to the above requirements, the Department's internal control system must provide for
reconciliation of amounts reflected in control accounts with subsidiary records and the reconciliation of
transactions and balances between different departments and agencies.

Condition Found
The Department has an inadequate internal control structure and has not established accounting
policies, procedures, and financial reporting practices necessary to conform to generally accepted
accounting principles, (GAAP), as applicable to governmental entities. Significant deficiencies noted are
as follows:

•   There is a lack of an effective internal control structure to seasonably assure compliance with
    the requirements of federal laws, regulations and program compliance requirements. The
    Department has deficiencies in internal control, such as the absence of sufficient level of
    control consciousness throughout all of the Department's separate administrative operations,
    the absence of an appropriate segregation of duties, the absence of appropriate management
    review and approval of transactions, accounting entries and financial and other reporting.

•   There are inadequate procedures for appropriately assessing and applying accounting
    principles, inadequate provisions for the safeguarding of assets, the absence of an
    accounting procedures manual and the absence of many controls considered appropriate for
    an entity of this size and type.

•   There is a lack of a self-balancing set of accounts for each fund to record cash and other
    financial resources, together with the related liabilities, residual equities balances or fund
    balances, and any related changes therein. Accounts should be segregated in funds or
    subfunds for purposes of demonstrating the accountability of the Department while carrying
    on a specific activity or attaining certain objectives in accordance with special regulations,
    restrictions or limitations.

In addition to the general deficiencies mentioned in the preceding paragraph we noted the following:

•   The Department did not furnish a financial statement line item budget for the Special Revenue
    Fund on a fiscal year basis coinciding with the Department's annual reporting period.
                                                                                            Attachment B
                                                                                             Page 4 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-01 (continued)

Condition Found (continued)
• The Department does not reconcile disbursements recorded in the Department's records with
  the Puerto Rico Treasury Department amounts disbursed. The Treasury Department is the
  agency that makes all disbursements for the Department of the Family.

Known Questioned Costs
None

Underlying Cause
The Department's management has not adopted a policy of following accounting principles generally
accepted in the United States that are applicable to governmental entities. In addition, management has
not adopted and enforced internal control policies and procedures over its accounting and financial
management, budgetary practices and financial reporting, and has not ensured that the Department is in
compliance with applicable laws, regulations and grant provisions.

Effect
The Department's ineffective internal control structure is conducive to many deficiencies as described in
the numerous findings contained in this report. The continued existence of these deficiencies could
result in significant cost disallowances by the federal awarding agencies or ultimately, in the reduction or
elimination of federal awards received by the Department.

Recommendation
The Department should implement an internal control structure to provide reasonable assurance that:

•   Transactions are properly recorded and accounted for to permit the preparation of reliable
    financial statements and federal reports, maintain accountability over assets, and
    demonstrate compliance with laws, regulations, and other compliance requirements

•   Transactions are executed in compliance with laws, regulations, and the provisions of
    contracts or grant agreements that could have a direct and material effect on a federal
    program.

•   Funds, property, and other assets are safeguarded against loss from unauthorized use or disposition.

The Department should also reorganize its accounting practices and policies to conform with GAAP.
This will require a plan for the implementation of an accounting and financial management system that
permits the preparation of financial statements in accordance with GAAP and of financial reports required
by the different oversight entities. This plan should cover the operations of the central, regional, and
district offices, consider the forthcoming changes and developments in the governmental accounting
industry and their impact on the financial and operational practices of the Department, and demonstrate
accountability over the federal programs and the related accounts receivable from the federal
government.
                                                                                          Attachment B
                                                                                           Page 5 of 19
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                           Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-01 (continued)

Recommendation (continued)
In addition, the Department should be prepared to take the necessary steps for the successful future
adoption of accounting developments such as statement No. 34 of the Government Accounting
Standards Board.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                            Attachment B
                                                                                             Page 6 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                            Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-02

Accounting and Finance Department

Topic Sentence
The Department does not have an effective filing system.

Category
Internal Control

Compliance Requirement
All applicable compliance requirements as stated in OMB Circular A-133.

Criteria
OMB Circular A-102, part C, Section 20 (a)(2) of the Uniform Administrative Requirements for Grants
Agreements to state and local governments establishes that fiscal control and accounting procedures of
the state must be sufficient to permit the tracing of funds to a level of expenditures adequate to establish
that such funds have not been used in violation of the restriction and prohibitions of applicable statutes.

Condition Found
During our audit, we noted that the procedures followed by personnel at the Filing Division did not permit
the timely retrieval of documents requested. In addition, we observed that various payment documents
processed by the different federal program accountants and the personnel at the Payment Division are
maintained and filed at the divisions without an organized system. A substantial number of documents
requested in connection with the testing of compliance with laws, regulations, grant requirements and
testing of internal controls could not be found.

Known Questioned Costs
None (Amounts identified are included in subsequent findings).

Underlying Cause
The Department has inadequate internal controls over record retention and the filing of documents due to
the lack of an overall control system that provides guidance to the different agencies and divisions on the
filing and retention requirements of documents.

Effect
The Department cannot support many of the disbursements made and therefore is unable to prove
compliance with applicable laws and regulations. The continued occurrence of this situation could result
in disallowed costs by the federal awarding agencies and the reduction or elimination of federal grant
awards.
                                                                                        Attachment B
                                                                                         Page 7 of 19
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                           Schedule of Findings and Questioned Costs (continued


Finding Number: 00-02 (continued)

Recommendation
The Department's management should ascertain that adequate source documentation exists to support
amounts and items reported as expenditures. The Department should also establish a recordkeeping
system to ensure that accounting records and documentation are retained for the time period required by
applicable requirements and the provisions of laws, regulations, contracts or grant agreements
applicable to the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                           Attachment B
                                                                                            Page 8 of 19
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-03

Accounting and Finance Department

Topic Sentence
The Department did not comply with the established due date for the submission of the required Single
Audit Report.

Category
Internal Control/Compliance

Compliance Requirement

All applicable compliance requirements as stated in OMB Circular A-133.

Criteria
OMB Circular A-133, Subpart C, Section 320 establishes that all audits shall be completed and submitted
to the cognizant agency within the earlier of 30 days after receipt of the auditor's report or nine (9)
months after the end of the audit period. However, for fiscal year beginning on or before June 30, 1998,
13 months after the end of the audit period was permitted.

Condition Found
The Department does not have a program in place to comply with the deadlines established by federal
law for the submission of Single Audit reports. As a result, the Department did not comply with the
required submission date of the Single Audit for the fiscal year ended June 30, 2000. The due date for
this report was no later than July 31, 2001. It should also be noted, that the Single Audit report for the
fiscal year ended June 30, 1999, was submitted no later than the required due date established by
federal regulations.

Known Questioned Costs
None

Underlying Cause

Due to the failure to ensure that adequate accounting records exist and that the timely and accurate
closing of books occurs, management did not comply with the requirements established in OMB Circular
A-133.

Effect
The Department could be exposed to a reduction or elimination of funding by the federal awarding
agencies.
                                                                                         Attachment B
                                                                                          Page 9 of 19
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                           Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-03 (continued)

Recommendation
The Accounting and Finance Division should establish aggressive monthly closing schedules and
improve its year-end closing procedures to allow for the timely performance of the Single Audit and
enable the Department to comply with the reporting requirements established by applicable regulations.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                            Attachment B
                                                                                            Page 10 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-05

State Agency                             Catalog Number       Program Name

U.S. Department of Agriculture           CFDA #10.566         Nutrition Assistance Program for Puerto
Rico

Topic Sentence
The Department has deficiencies in the execution of property management procedures.

Category
Internal Control/Compliance

Compliance Requirement
Equipment Management

Criteria
As per 7CFR Part 3015, Subpart R, Section 3015.169, property records shall be accurately maintained.
The records shall include, for each item of equipment, a description of the equipment including
manufacturer's serial numbers, identification number, identification of the grant under which the recipient
acquired the equipment, the information needed to calculate the federal share of the equipment, the
acquisition date and unit acquisition cost, the location, use and condition of the equipment and the date
the information was reported and all pertinent information on the ultimate transfer, replacement, or
disposal of the equipment.

In addition, every two years, at a minimum, a physical inventory shall be conducted and the results shall
be reconciled with the property records to verify the existence, current utilization, and continued need for
the equipment. Any discrepancies between quantities determined by the physical inspection and those
shown in the accounting records shall be investigated to determine the causes of the differences.

Condition Found
The Department does not perform a reconciliation of the physical inventory with the accounting records.
In addition, the following items are not specified in the Department's property subsidiary ledger:

       •   The percentage of federal participation in the cost of the property
       •   The grant under which the recipient acquired the equipment
       •   All information on the ultimate transfer, replacement or disposal of the equipment

Total Nutritional Assistance Program for Puerto Rico's property and equipment additions for the fiscal
year ended June 30, 2000 amounted to $47,869.

Known Questioned Costs
None
                                                                                       Attachment B
                                                                                       Page 11 of 19
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                          Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-05 (continued)

Underlying Cause
The Department does not have procedures to maintain accurate records for acquisitions and dispositions
for property acquired with federal funds. Management does not have knowledge of federal requirements
regarding property acquired with federal funds.

Effect
The Department is exposed to the risk of possible unauthorized use and disposition of equipment due to
the lack of internal controls and the lack of adequate property and equipment records. The possible
misappropriation of the equipment acquired with federal funds could result in disallowed costs.

Recommendation
The Department must implement internal control procedures to ascertain that the requirements of
property acquired with federal funds are met. Management and employees should receive trainings and
written policies and procedures must be prepared.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                          Attachment B
                                                                                          Page 12 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-06

State Agency                            Catalog Number       Program Name

U.S. Department of Agriculture          CFDA #10.566         Nutrition Assistance Program for Puerto
Rico

Topic Sentence
The Department could not locate evidence to support administrative disbursements.

Category
Internal Control/Compliance

Compliance Requirement
Allowable Costs/Costs Principles

Criteria
As stated in 7CFR Part 3015, Subpart D, Section 3015.21, recipients should retain records for
three-years, unless there are open litigations, claims, audits or other actions involving the records that
have been started before the end of the three-year period in which case the records shall be retained
until all issues are resolved, whichever is later. Also, 7 CFR Part 3015, Subpart H, section 3015.61
requires recipients to maintain effective control over and accountability for all USDA grant or sub-grant
funds, real and personal property assets.

Condition Found
In testing the allowable administrative disbursements for the fiscal year ended June 30, 2000, we
selected 18 disbursements related to the Nutrition Assistance Program for Puerto Rico, which amounted
to $39,268. Total administrative disbursements for the fiscal year ended June 30, 2000, amounted to
$322,871,637. The Department could not provide us the invoice and cancelled check in 3 out of 18
administrative disbursements tested amounting to $1,875 as follows:

                                   Document Number            Amount

                                        1520000083                 $ (100)
                                        97865                         450
                                        141007                      1,525

                                                                   $1,875

Known Questioned Costs
$1,875. However, we have estimated the likely questioned costs to exceed $10,000.

Underlying Cause
The Department's internal control procedures regarding record retention of documents are inadequate.
                                                                                      Attachment B
                                                                                      Page 13 of 19
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                          Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-06 (continued)

Effect
It is possible that the Department expended NAP Program funds for unallowable activities, which could
result in disallowance of costs by the awarding agency.

Recommendation
The Department should ascertain that adequate source documents exist to support amounts and items
reported as expenditures. The Department should also establish a record keeping system to ascertain
that accounting records and documentation are retained for the time period required by applicable
requirements and the provisions of laws, regulations, contracts or grant agreements applicable to the
Program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                           Attachment B
                                                                                           Page 14 of 19
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-14

State Agency                          Catalog Number        Program Name
                                      CFDA #10.568/         The Emergency Food Assistance
U. S. Department of Agriculture       CFDA #10.569          Program - TEFAP

Topic Sentence
The Department filed Financial Status Reports that do not agree with the General Ledger.

Category
Compliance/Internal Control

Compliance Requirement
Reporting

Criteria

7CFR Section 251.10 (d)(1) requires that standard for financial management systems related to internal
control, effective control and accountability must be maintained for all grants and subgrants cash, real,
property and other assets and accurate and complete disclosure of the financial results of financially
assisted activities must be made in accordance with the financial reporting requirements of the grants
and subgrants.

Condition Found
We could not agree the amounts of disbursements in the General Ledger to the Federal Financial Status
Report. The differences presented between the two are as follow:

                                                                          Financial Status
                                                      Financial Status        Report
             Quarterly Ending      General Ledger         Report            Over/(Under)

                 9/30/1999              $195,747.00       $ 188,059.76           $ (7,687.24)
                12/31/1999               149,537.00         148,764.22               (772.78)
                 3/31/2000                -                 553,890.77            553,890.77
                 6/30/2000                -                 466,219.00            466,219.00

                                        $345,284.00      $1,356,933.75         $1,011,649.75

Known Questioned Costs
None

Underlying Cause
No reconciliation of the differences between the Accounting Department and the Federal Reports
Department are performed.
                                                                                       Attachment B
                                                                                       Page 15 of 19
                                 Commonwealth of Puerto Rico
                                   Department of the Family

                          Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-14 (continued)

Effect
Inaccurate reporting performance prevents the federal awarding agency from monitoring of the program's
financial activities, assessing the achievements of the program and evaluating the grant award for the
following year.

Recommendation
The Department should analyze and reconcile differences between amounts reported by both
Departments.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                             Attachment B
                                                                                             Page 16 of 19
                                   Commonwealth of Puerto Rico
                                     Department of the Family

                    Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-25

State Agency                             Catalog Number        Program Name
                                                               Rehabilitation Services - Vocational
U.S. Department of Education             CFDA #84.126          Rehabilitation State Grants

Topic Sentence
Expenditures were charged to an incorrect grant.

Category
Internal Control/Compliance

Compliance Requirement
Cash Management

Criteria
As stated in Circular A-110 (28), regarding to the period of availability of funds, where a funding period is
specified, a recipient may charge to the grant only allowable costs resulting from obligations incurred
during the funding period.

Condition Found
We noted that expenses incurred in 2000 were paid with the federal funds corresponding to the grant
award 2001. We examined 126 documents of a total of 888 documents, or 14%, and we noted that 123
documents, or 98% of the sample, had exceptions.

Known Questioned Costs
$1,206,056

Underlying Cause
The Department does not have internal control procedures established to ascertain that expenditures are
charged to its corresponding award.

Effect
Federal agency can make adjustments to the grant, resulting in disallowed costs.

Recommendation
Management should establish procedures to ascertain that expenditures are compared to the budget
and charged to the correct grant award in compliance with requirements and the provisions of laws,
regulations, contracts and/or grant agreements applicable to the program.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                          Attachment B
                                                                                          Page 17 of 19
                                  Commonwealth of Puerto Rico
                                    Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-28

State Agency                     Catalog Number        Program Name

Federal Emergency
Management Agency                CFDA #83.543          Individual and Family Grants

Topic Sentence
The Department has delays in the time elapsed between the transfer of federal funds and the
disbursements of the funds.

Category
Compliance/Internal Control

Compliance Requirement
Cash Management

Criteria
31CFR 205.6 establishes that the Pre-issuance funding is a method of transferring Federal funds to the
State prior to the date the State issues checks or initiates payments. When this funding technique is
applied, a state will incur an interest liability to the Federal Government from the day the Federal funds
are credited to a state account to the day the State pays out the funds for program purposes. A State
shall request funds not more than three days prior to the day on which it makes a disbursement, and a
Federal agency shall deposit funds in a State account the next business day after receiving a request for
funds.

Condition Found
In testing compliance with cash management, we reviewed the report of disbursements to beneficiaries
of the program and the procedures implemented to minimize the time elapsed between the transfer of
Federal Funds and the pay out of funds for program purposes.

During our testing, we noted that request for funds were made while the fund account in the Treasury
Department still had a remaining balance, the use of the funds requested begins at least a week after the
request for funds. In some instances the time elapsed for using the requested funds was more than two
weeks. In addition, the Request for Funds for Federal Award 1247 was made through Smartlink and no
hard copies were provided.

Known Questioned Costs
Could not be determined.

Underlying Cause
The Department requested funds more than three days prior to the day on which it makes a
disbursement.
                                                                                         Attachment B
                                                                                         Page 18 of 19
                                  Commonwealth of Puerto Rico
                                    Department of the Family

               Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-28 (continued).

Effect
The Department may incur in an interest liability to the Federal Government from the day the Federal
funds are credited to a state account to the day the State pays out the funds for programs purposes.
Excess funds must be returned immediately.

Recommendation
The Department should ascertain that adequate source documentation exists to support the cash
management of federal funds. Procedures should be established to ascertain that the time elapsed
between the receipt and use of funds is minimal. The Department should also establish a record
retention system to ascertain the compliance with the time period required by applicable regulations and
the provisions of laws, contracts or grant agreements of the program. The state should conduct periodic
monitoring to avoid those situations.

Management's Response
The Department acknowledged our finding and agreed with our recommendation.
                                                                                         Attachment B
                                                                                         Page 19 of 19
                                    Commonwealth of Puerto Rico
                                      Department of the Family

                   Schedule of Findings and Questioned Costs (continued)


Finding Number: 00-90

State Agency                       Catalog Number           Program Name

U. S. Health and Human
Services                           CFDA #93.600             Head Start Program

Topic Sentence
The Department does not have a cost allocation approved.

Category
Compliance

Compliance requirement
Allowable Costs/Costs Principles

Criteria
Subpart C of the Code of Federal Regulations Number 45 CFR 74.27 states that grantees should follow
costs principles under the requirements of OMB Circular A-87. This Circular requires a formal plan of
allocation of costs to support the distribution of any joint costs related to the grant program. The DHHS
is responsible for the negotiation and approval of the cost allocation plan prepared by state agencies.

Condition Found
The Department does not have an approved Cost Allocation Plan from the Federal Cognizant Agency for
the Program year 99-00. The DHHS has requested this Plan update on prior periods. The Department
presented, subsequent to the date of the accompanying financial statements, a Plan for the federal
agency's consideration.

Known Questioned Costs
$1,361,646

Underlying Cause
The Department failed to submit and have an approved Cost Allocation Plan for the current Program
Year, as required by Subpart C of the Code of Federal Regulations Number 45 CFR 74.27.

Effect
The Department's Cost Allocation Plan was not approved for the Program year 99-00 and charges for
indirect costs to the Program are not in compliance with the requirement of the DHHS.

Recommendation
We recommend the Department to obtain as soon as possible the approval of its Cost Allocation Plan, to
be in compliance with Federal Regulations.
                   Overview of the Office of the Inspector General


                                         Office of Audit
The Office of Audit (OA) conducts comprehensive financial and performance audits of the
Social Security Administration’s (SSA) programs and makes recommendations to ensure
that program objectives are achieved effectively and efficiently. Financial audits, required
by the Chief Financial Officers' Act of 1990, assess whether SSA’s financial statements
fairly present the Agency’s financial position, results of operations and cash flow.
Performance audits review the economy, efficiency and effectiveness of SSA’s programs.
OA also conducts short-term management and program evaluations focused on issues of
concern to SSA, Congress and the general public. Evaluations often focus on identifying
and recommending ways to prevent and minimize program fraud and inefficiency, rather
than detecting problems after they occur.

                                Office of Executive Operations
The Office of Executive Operations (OEO) supports the Office of the Inspector General
(OIG) by providing information resource management; systems security; and the
coordination of budget, procurement, telecommunications, facilities and equipment, and
human resources. In addition, this office is the focal point for the OIG’s strategic planning
function and the development and implementation of performance measures required by the
Government Performance and Results Act. OEO is also responsible for performing internal
reviews to ensure that OIG offices nationwide hold themselves to the same rigorous
standards that we expect from SSA, as well as conducting investigations of OIG employees,
when necessary. Finally, OEO administers OIG’s public affairs, media, and interagency
activities, coordinates responses to Congressional requests for information, and also
communicates OIG’s planned and current activities and their results to the Commissioner
and Congress.


                                 Office of Investigations
The Office of Investigations (OI) conducts and coordinates investigative activity related to
fraud, waste, abuse, and mismanagement of SSA programs and operations. This includes
wrongdoing by applicants, beneficiaries, contractors, physicians, interpreters, representative
payees, third parties, and by SSA employees in the performance of their duties. OI also
conducts joint investigations with other Federal, State, and local law enforcement agencies.

                           Counsel to the Inspector General
The Counsel to the Inspector General provides legal advice and counsel to the Inspector
General on various matters, including: 1) statutes, regulations, legislation, and policy
directives governing the administration of SSA’s programs; 2) investigative procedures and
techniques; and 3) legal implications and conclusions to be drawn from audit and
investigative material produced by the OIG. The Counsel’s office also administers the civil
monetary penalty program.
